CERTIFICATE OF COMPLIANCE
Case No. 19-292
Caption: Torres v. Madrid
As required by Supreme Court Rule 33.l(h),
I certify that the document contains 8,323 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33.l(d).
I declare under penalty of perjury that the
foregoing is true and correct.
Executed on February 7, 2020.

Record Press, Inc.

Sworn to before me on
February 7, 2020
NADIA R. OSWALD HAMID
Notary Public, State of New York
No. 010S6101366
Qualified in Kings County
. .
.

